TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Progress Has Been Made; However,
                      Significant Work Remains to Achieve
                        Full Implementation of Homeland
                        Security Presidential Directive 12



                                     September 12, 2014

                             Reference Number: 2014-20-069




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


PROGRESS HAS BEEN MADE;                              not scheduled until at least Fiscal Year 2018,
HOWEVER, SIGNIFICANT WORK                            and only if funding is available. In addition,
REMAINS TO ACHIEVE FULL                              significant challenges remain in the area of
IMPLEMENTATION OF HOMELAND                           implementing PIV card electronic authentication
                                                     for accessing IRS networks and information
SECURITY PRESIDENTIAL
                                                     systems. These challenges include many
DIRECTIVE 12                                         legacy systems and technologies in use at the
                                                     IRS that are incompatible with PIV cards, and

Highlights                                           limited HSPD-12 staffing and funding for
                                                     resolving these conflicts.
Final Report issued on                               WHAT TIGTA RECOMMENDED
September 12, 2014
                                                     TIGTA recommended that the Chief Technology
                                                     Officer and Chief, Agency-Wide Shared
Highlights of Reference Number: 2014-20-069          Services, ensure that all IRS facilities are
to the Internal Revenue Service Chief                equipped with HSPD-12 compliant physical
Technology Officer.                                  access control systems. Also, TIGTA
IMPACT ON TAXPAYERS                                  recommended that the Chief Technology Officer
                                                     ensure that specific requirements, staffing, and
Issued in August 2004, the Homeland Security         scheduling are identified and adequate funding
Presidential Directive 12 (HSPD-12), Policy for a    requested to ensure full implementation of
Common Identification Standard for Federal           mandatory PIV card access to the IRS network
Employees and Contractors, requires Federal          and information systems; issue an IRS-wide
agencies to issue identity credentials that meet     memorandum to reiterate the requirement for full
the HSPD-12 standard and use them for gaining        PIV card adoption; and ensure that HSPD-12
physical access to Federally controlled facilities   compliant requirements are integrated in the
and logical access to Federally controlled           IRS’s lifecycle management process to ensure
information systems. Without full                    that new and existing systems implement this
implementation of HSPD-12 compliant                  requirement.
authentication, IRS facilities, networks, and
information systems are at an increased risk of      The IRS agreed with all of our recommendations
unauthorized access.                                 and has planned appropriate corrective actions
                                                     to address them. The IRS plans to continue to
WHY TIGTA DID THE AUDIT                              implement HSPD-12 compliant access control
                                                     systems at IRS facilities, identify and oversee
This audit was initiated to determine the IRS’s      funding needed to support full implementation of
progress in implementing HSPD-12                     HSPD-12, issue an IRS-wide memorandum
requirements for accessing IRS facilities and        reiterating the requirements for full adoption of
information systems. The U.S. Department of          PIV card access to the IRS network and
the Treasury has set a goal for its bureaus to       information systems, and ensure that HSPD-12
achieve 100-percent HSPD-12 compliance by            requirements are integrated into the IRS’s
Fiscal Year 2015. In Fiscal Year 2012, the           enterprise lifecycle development processes.
Administration identified HSPD-12 as a
Cross-Agency Priority initiative needed to
improve the security of Federal data.
WHAT TIGTA FOUND
The majority of the IRS workforce has been
issued HSPD-12 compliant Personal Identity
Verification (PIV) cards. However, full
implementation of PIV card electronic
authentication for accessing IRS facilities is
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 12, 2014


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Progress Has Been Made; However, Significant
                             Work Remains to Achieve Full Implementation of Homeland Security
                             Presidential Directive 12 (Audit # 201420003)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) progress in
 implementing Homeland Security Presidential Directive 12 requirements for accessing IRS
 facilities and information systems. This audit was initiated as part of the Treasury Inspector
 General for Tax Administration’s Fiscal Year 2014 Annual Audit Plan and addresses the major
 management challenge of Security for Taxpayer Data and Employees.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Kent Sagara, Acting
 Assistant Inspector General for Audit (Security and Information Technology Services).
                                   Progress Has Been Made; However, Significant
                                   Work Remains to Achieve Full Implementation of
                                    Homeland Security Presidential Directive 12




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Personal Identity Verification Cards Have Been
          Issued to 85 Percent of the Workforce .......................................................... Page 5
          Personal Identity Verification Card Electronic
          Authentication for Physical Access Has Been
          Implemented at 21 Percent of Facilities........................................................ Page 9
                    Recommendation 1:........................................................ Page 10

          Personal Identity Verification Card Electronic
          Authentication for Logical Access to the Network
          Has Been Implemented for Only 5 Percent of the
          Workforce ..................................................................................................... Page 11
                    Recommendation 2:........................................................ Page 14

                    Recommendations 3 and 4: .............................................. Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Internal Revenue Service Personal Identity
          Verification Card Issuance and Use Graphics .............................................. Page 20
          Appendix V – Management’s Response to the Draft Report ....................... Page 23
          Progress Has Been Made; However, Significant
          Work Remains to Achieve Full Implementation of
           Homeland Security Presidential Directive 12




                   Abbreviations

AWSS        Agency-Wide Shared Services
FY          Fiscal Year
HSPD-12     Homeland Security Presidential Directive 12
IIAM        Internal Identity and Access Management
IRS         Internal Revenue Service
OMB         Office of Management and Budget
PIN         Personal Identification Number
PIV         Personal Identity Verification
TIGTA       Treasury Inspector General for Tax Administration
                                Progress Has Been Made; However, Significant
                                Work Remains to Achieve Full Implementation of
                                 Homeland Security Presidential Directive 12




                                               Background

On August 27, 2004, President George W. Bush issued
                                                                Personal Identity Verification
Homeland Security Presidential Directive 12
                                                              cards improve security, increase
(HSPD-12), Policy for a Common Identification                  Government efficiency, reduce
Standard for Federal Employees and Contractors,                  identity fraud, and protect
which requires agencies to follow specific technical         personal privacy by establishing a
standards and business processes for the issuance and           mandatory, Governmentwide
                                             1                standard for secure and reliable
routine use of Federal identity credentials. The goal of
                                                                   forms of identification.
the initiative is to ensure that only authorized personnel
have access to Government systems and applications.
This creates a more secure enterprise architecture by reducing the opportunity for identity fraud,
thereby increasing the safety of both Government information and personal privacy.
On August 5, 2005, the Office of Management and Budget (OMB) issued policy memorandum
M-05-24, Implementation of Homeland Security Presidential Directive (HSPD) 12 – Policy for a
Common Identification Standard for Federal Employees and Contractors, which outlined
instructions for implementing HSPD-12. Federal agencies were to issue and require use of
identity credentials meeting the HSPD-12 standard for current employees and contractors no
later than October 27, 2007, for gaining physical access to Federally controlled facilities and
logical access to Federally controlled information systems. It stated that inconsistent agency
approaches to facility security and computer security were inefficient and costly, and increased
risks to the Federal Government. Successful implementation of the HSPD-12 standard would
increase the security of Federal facilities and information systems.
In November 2009, the Federal Chief Information Officers Council released the Federal Identity,
Credential, and Access Management Roadmap and Implementation Guidance to aid Federal
agencies in implementing HSPD-12. The Federal Identity, Credential, and Access Management
Roadmap focused on addressing the challenges and design requirements for Governmentwide
identity, credential, and access management, and defining and promoting consistency across the
Federal Government. The Federal Government adopted the Personal Identity Verification (PIV)
card as the standard identity credential for Federal employees and contractors and as a key
element in moving towards strong authentication.2
On February 3, 2011, the OMB issued policy memorandum M-11-11, Continued Implementation
of Homeland Security Presidential Directive (HSPD) 12 – Policy for a Common Identification


1
  An identity credential is an object that authoritatively binds an identity (and optionally, additional attributes) to a
token possessed and controlled by an entity.
2
  Authentication is the process of verifying that a claimed identity is genuine and based on valid credentials.
                                                                                                                   Page 1
                         Progress Has Been Made; However, Significant
                         Work Remains to Achieve Full Implementation of
                          Homeland Security Presidential Directive 12


Standard for Federal Employees and Contractors, which required each agency to develop and
issue an implementation policy through which the agency will require the use of the PIV
credentials as the common means of authentication for access to that agency’s facilities,
networks, and information systems. This memorandum stated that the majority of the Federal
workforce was in possession of the PIV credentials and, therefore, agencies should aggressively
step up their efforts to use the electronic capabilities of the credentials.
In Fiscal Year (FY) 2012, the Obama Administration identified HSPD-12 as a strategy within the
Cybersecurity Cross-Agency Priority Goal. The Cross-Agency Priority Goal strategy is intended
to help monitor the implementation of Federal cybersecurity policies and legislation needed to
improve the security of Federal data. As part of the Cybersecurity Cross-Agency Priority Goal
strategy, the Obama Administration is monitoring the implementation of PIV-card access to
Federal information systems. As of the end of FY 2013, the Federal Government as a whole
reported to have achieved 67 percent implementation of PIV-card access to Federal information
systems. The target set for Federal agencies to achieve by the end of FY 2014 is 75 percent
implementation.
The Department of the Treasury (hereafter referred to as the Treasury Department) issued
Treasury Directive 71-12 on September 28, 2011, to set policy and define responsibilities for
compliance with HSPD-12 with the Treasury Department. The directive required Treasury
Department bureaus to plan and report the status of their PIV credential use for physical and
logical access to the Treasury Enterprise Identity Credential and Access Management Program
Executive Office.
The Internal Revenue Service (IRS) established the Internal Identity and Access Management
(IIAM) Program Management Office for achieving the implementation of processes,
technologies, and policies to manage user identities throughout their lifecycle, and to meet
Federal Identity, Credential, and Access Management and Treasury Enterprise Identity
Credential and Access Management goals. Appendix IV presents a graphic depiction of IRS PIV
card issuance and use.
The Treasury Inspector General for Tax Administration (TIGTA) has issued the following audit
reports on the IRS’s efforts to implement the directive. In general, TIGTA reported that progress
was slow in implementing HSPD-12 requirements.
      TIGTA, Ref. No. 2007-20-110, Progress Has Been Slow in Meeting Homeland Security
       Presidential Directive-12 Requirements (Jun. 2007).
      TIGTA, Ref. No. 2008-20-030, Lack of Proper IRS Oversight of the Department of the
       Treasury HSPD-12 Initiative Resulted in Misuse of Federal Government Resources
       (Dec. 2007).
      TIGTA, Ref. No. 2009-20-084, The Homeland Security Presidential Directive 12
       Program Office Has Addressed Prior Weaknesses, but Progress Is Slower Than What
       Has Been Reported (Jun. 2009).
                                                                                          Page 2
                         Progress Has Been Made; However, Significant
                         Work Remains to Achieve Full Implementation of
                          Homeland Security Presidential Directive 12


      TIGTA, Ref. No. 2012-20-115, Using SmartID Cards to Access Computer Systems Is
       Taking Longer Than Expected (Sept. 2012).
This review was performed with information obtained from the Information Technology
organization’s Office of Cybersecurity in Charlotte, North Carolina, and Washington D.C.; and
the Agency-Wide Shared Services’s (AWSS) Office of Physical Security and Emergency
Preparedness in Washington D.C., during the period January through June 2014. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 3
                            Progress Has Been Made; However, Significant
                            Work Remains to Achieve Full Implementation of
                             Homeland Security Presidential Directive 12




                                    Results of Review

The implementation of HSPD-12 is a substantial and complex project at the IRS. The project
consists of multiple, interrelated components including implementing interrelated systems for:
       Issuing PIV cards to authorized employees and contractors;
       Using PIV cards to gain physical access to IRS facilities; and
       Using PIV cards to gain logical access to the IRS network and information systems.
The Treasury Department has set a goal for its bureaus to achieve 100-percent HSPD-12
compliance by FY 2015. The IRS has spent more than $110 million3 to implement HSPD-12
and has budgeted an additional $19 million for FY 2014. Even so, HSPD-12 project
management officials cite the lack of sufficient funding and staffing as a main obstacle to
completing full implementation of HSPD-12. The majority of the IRS workforce has been
issued PIV cards. However, full implementation of physical access controls using PIV card
electronic authentication at IRS offices is not scheduled until at least FY 2018, and only if
funding is available. In addition, significant challenges remain in the area of implementing
logical access controls to IRS networks and information systems using PIV cards. The IRS is
not unique in its implementation challenges. Many Federal agencies have experienced
challenges in implementing HSPD-12. In March 2013, the OMB reported that not a single
Federal agency had fully implemented HSPD-12.
In our September 2012 TIGTA report on HSPD-12,4 we reported that the IRS had not made
adequate progress in areas such as implementing HSPD-12 compliant authentication for system
administrators and did not conduct required testing or complete key developmental documents
and processes. During this review, we followed up on these issues and found that the IRS had
taken action to conduct testing on its HSPD-12 authentication components and complete key
project developmental documents. However, the administrator access issue remains one of the
technological challenges still impeding the IRS’s full implementation of HSPD-12, which we
will discuss more fully in the body of our report.




3
  The IRS could not provide us complete cost information that it expended on HSPD-12 implementation for
FYs 2005 through 2008; therefore, total implementation cost is likely much higher.
4
  TIGTA, Ref. No. 2012-20-115, Using SmartID Cards to Access Computer Systems Is Taking Longer Than
Expected (Sept. 2012).
                                                                                                          Page 4
                             Progress Has Been Made; However, Significant
                             Work Remains to Achieve Full Implementation of
                              Homeland Security Presidential Directive 12


Personal Identity Verification Cards Have Been Issued to 85 Percent
of the Workforce
HSPD-12 requires that agencies issue PIV cards, “to the maximum extent practicable,” to
authorized employees and contractors for use in accessing Government offices and information
systems. In accordance with OMB M-05-24, Treasury Department policy states that individuals
who require physical access to Federally controlled facilities or electronic access to Government
information systems for more than six months must be issued a PIV card. The Treasury
Department set a goal for its bureaus to sustain their PIV card issuance rates above 90 percent for
FYs 2011 through 2015.
The IRS has made steady progress in issuing PIV cards to its employees and contractors. As of
February 27, 2014, the IRS’s PIV card database supported that 80,119 PIV cards had been
issued, or were in the process of being issued, to IRS network users,5 achieving an 85 percent
issuance rate. The PIV database also listed 14,099 employees and contractors as requiring PIV
cards but not yet issued, and 7,734 seasonal employees as not requiring PIV cards. Figure 1
illustrates these figures.
                    Figure 1: PIV Card Issuance Implementation Status



                                                                         IRS Workforce Issued Cards
                                                                         (80,119)
                                                                         Seasonal IRS Workforce ‐ Card
                                                                         Not Required (7,734)
                                                                         IRS Workforce Not Issued
                                                                         Cards (14,099)




       Source: AWSS database containing PIV card data for IRS employees and contractors.

Of the 80,119 IRS workforce who have been issued PIV cards, 79,339 are IRS employees and
780 are contractors. Of the 14,099 individuals not yet issued PIV cards, 9,503 are IRS
employees and 4,596 are contractors. Figures 2 and 3 illustrate these figures.



5
 Due to employee turnover, the number of network users fluctuates. For example, from February 14, 2014, to
May 30, 2014, the number of networks users declined from 94,951 to 94,251.
                                                                                                         Page 5
                                Progress Has Been Made; However, Significant
                                Work Remains to Achieve Full Implementation of
                                 Homeland Security Presidential Directive 12


              Figure 2: PIV Cards Issued to IRS Employees and Contractors




                                                                                          IRS Employees (79,339)
                                                                                          Contractors (780)




    Source: AWSS database containing PIV card data for IRS employees and contractors.

           Figure 3: PIV Cards Not Issued to IRS Employees and Contractors




                                                                                            IRS Employees (9,503)
                                                                                            Contractors (4,596)




    Source: AWSS database containing PIV card data for IRS employees and contractors.

For issued cards, the IRS must perform maintenance activities, such as periodic card and
certificate6 renewals. PIV cards expire every five years and must be renewed. The digital
certificate within the card must be rekeyed every three years to keep the certificate up to date and
the card operational. As of March 2014, the IRS had renewed more than 58 percent of PIV cards

6
  A certificate is a data object containing a subject identified, a public key, and other information that is digitally
signed by a certification authority. Certificates convey trust in the relationship of the subject identifier to the public
key. A public key is the public part of an asymmetric key pair that is typically used to verify signatures or encrypt
data.
                                                                                                                  Page 6
                             Progress Has Been Made; However, Significant
                             Work Remains to Achieve Full Implementation of
                              Homeland Security Presidential Directive 12


that were expiring during Calendar Year 2014. Also, the IRS had completed certificate rekeys
for more than 45 percent of active PIV cardholders for Calendar Year 2014.
However, the IRS has stayed at an 85-percent card issuance rate since FY 2013. Several factors
have contributed to the IRS’s inability to achieve a higher percentage.
       The IRS’s disparate identity environment creates data errors that must be manually
        corrected. Currently, the provisioning of an IRS identity and issuance of a fully
        functional PIV card is cumbersome, slow, and includes decentralized manual processes
        and steps. PIV issuance and population of data attributes for the PIV card involve
        multiple systems at the IRS, Treasury Department, and Federal levels. The IRS also has
        multiple internal identity-related systems and processes, owned by the IRS Information
        Technology organization and the AWSS. These include:
        o Corporate Authoritative Directory Services.
        o Totally Automated Personnel System.
        o Human Capital Office.
        o Career Connector Companion.
        o Human Resources Reporting Center.
        o Online 5081.
        o Active Directory.
        o Active Roles Server and other key systems.
        IRS HSPD-12 project staff indicated that the IRS is currently working missing or
        mismatched data issues for 5,000 employees and contractors that must be resolved before
        their PIV cards can be issued. Correcting data errors or mismatches requires a lot of
        manual research and input from multiple separate data sources at the IRS, Treasury
        Department, and Federal levels. The Treasury Department periodically runs an exception
        tool to identify employee and contractor records that are affected by missing data
        elements that prevent the issuance of the PIV card. AWSS staff must work with the
        sponsors7 of these individuals, or must assign a sponsor, to manually correct records and
        ensure that all the data elements are in place. However, the sponsor’s actions may be
        limited within the various systems, and the AWSS staff often must work with the
        Treasury Department to make corrections for missing or mismatched data elements.




7
 A sponsor acts on behalf of the agency to facilitate the credentialing process by inputting data elements into
authoritative information systems. Depending on the applicant’s employment status, a sponsor may be a Federal
supervisor, contracting officer, contracting officer’s representative, or other Federal official.
                                                                                                           Page 7
                         Progress Has Been Made; However, Significant
                         Work Remains to Achieve Full Implementation of
                          Homeland Security Presidential Directive 12


      The IRS must manually verify contractor data prior to issuance of PIV cards. Of the
       14,099 individuals listed as requiring PIV cards but do not have them yet, 4,596 are
       contractors. The PIV database provided by the IRS showed that only 780 contractors at
       the IRS have been issued PIV cards. The IRS must retrieve contractor data needed for
       PIV card issuance from its PIV Background Investigation Process system. The data from
       this system must be manually verified to ensure that they are correct, that the contractor is
       still active, and that the contractor is required to be issued a PIV card. Some contractors
       listed as needing PIV cards may not in fact need them for various reasons, such as they
       do not require system access, they work at their own facilities, they are custodial, or they
       may be employed for less than six months.
      IRS offices at remote locations affect the timely issuance of PIV cards due to their
       distance from credentialing stations. The IRS has about 65 buildings that are located
       more than 50 miles from credentialing stations. About 338 employees and contractors
       located in these offices have not been issued PIV cards. These individuals have been
       issued legacy identification badges that do not require activation and can be shipped to
       the employee directly. To be issued a PIV card, these employees must travel to a
       credentialing station that can issue PIV cards. Therefore, correction of this issue may be
       affected by budget constraints.
      The IRS’s high workforce turnover rate inhibits achieving the PIV card issuance goal.
       According to AWSS staff, IRS employee records show that its turnover rate has been
       12 percent and 13 percent since FY 2009. Therefore, some individuals listed as requiring
       PIV cards may not be onboard for more than six months due to unexpected/early
       departures. Also, although seasonal employees that are onboard less than six months do
       not require a PIV card, sometimes they are inaccurately coded in the system as requiring
       PIV cards, which causes this number to be inflated.
To resolve the issues related to data consistency and manual processes that have delayed PIV
card issuance, the Treasury Department is implementing an enterprise solution, known as PIV
Data Synchronization, which will synchronize PIV data across the Treasury Department
enterprise, bureaus, and external Federal systems. The PIV Data Synchronization will integrate
card issuance with the hiring process and allow issuance of PIV cards to new employees on their
first day of work, resulting in the security benefits of immediate PIV access to facilities and
information systems for each employee.
In addition, the PIV Data Synchronization will provide a central store for contractors and
account for all PIV cards issued to contractors within the Treasury Department. It will reduce
redundancy in systems that support contractor access, establish a single repository to account for
contractor policy compliance, and serve as a single source for revocation of a contractor’s
credentials/privileges.



                                                                                             Page 8
                              Progress Has Been Made; However, Significant
                              Work Remains to Achieve Full Implementation of
                               Homeland Security Presidential Directive 12


The IRS is in the process of building infrastructure to interface directly with the Treasury
Department’s PIV Data Synchronization components.8 The IRS expects that once these systems
can interface with each other in real-time, data mismatch problems should largely be resolved,
manual processes can be removed, and the secure creation and management of PIV identities
will be expedited. The IRS completed the interfaces needed to create IRS employee identities
and is working to add the interfaces needed to create contractor identities.
Based on the IRS’s ongoing work to improve its identity management and card issuance
processes, we are not making any recommendations related to PIV card issuance. The IRS
expects its infrastructure improvements will help it meet the HSPD-12 mandate.

Personal Identity Verification Card Electronic Authentication for
Physical Access Has Been Implemented at 21 Percent of Facilities
HSPD-12 requires the use of PIV card electronic authentication for physical access to Federal
facilities. OMB’s October 2005 guidance instructed agencies to use appropriate card
authentication mechanisms at their facilities and specified “minimal reliance” on visual
authentication as a sole means of authenticating PIV credentials. OMB’s February 2011
guidance noted that the majority of the Federal workforce was by then in possession of PIV cards
and required agencies to increase usage of the electronic capabilities of PIV credentials as the
common means of authentication for access to agency facilities. The Treasury Department set a
goal for its bureaus to achieve 100-percent HSPD-12 compliance for physical access by
FY 2015.
The IRS has identified 625 locations within the United States and Puerto Rico which require
HSPD-12 physical access controls.9 The IRS has implemented PIV card electronic
authentication at 130 (21 percent) of these locations and has determined that it will not upgrade
134 locations for HSPD-12 compliance. The IRS believes the costs of upgrading these locations
are not justified because these offices either have a lower security level, or may be consolidated
or closed at some future date. Of the remaining 361 facilities, the IRS estimates that it will not
complete PIV-based electronic authentication until at least FY 2018, and only if funding is
available. Figure 4 illustrates these figures.




8
  The Treasury Department’s PIV Data Synchronization components include HR Connect, Data Management
Service, Treasury Enterprise Directory Service, and USAccess.
9
  The IRS has employees located at more than 100 additional international offices; however, the State Department is
responsible for implementing HSPD-12 physical access controls at these locations.
                                                                                                           Page 9
                              Progress Has Been Made; However, Significant
                              Work Remains to Achieve Full Implementation of
                               Homeland Security Presidential Directive 12


                Figure 4: Physical Access Controls Implementation Status


                                                                             Implementation Completed
                                                                             (130)

                                                                             Will Not Implement (134)


                                                                             Will Complete Implementation
                                                                             by FY 2018 or Beyond (361)




     Source: IRS information on implementing PIV card electronic access at IRS facilities.

The IRS estimates it requires approximately $123 million and an additional six full-time
employees to complete implementation at just the 361 offices it intends to make HSPD-12
compliant. Significant additional funding would be required to make compliant the 134 facilities
for which the IRS has decided not to make HSPD-12 compliant.
HSPD-12 does not contain provisions for nonimplementation of PIV-based physical access
control systems at Federal Government facilities. However, HSPD-12 does suggest that agencies
implement PIV-based control systems at higher risk facilities first. Further, the Federal
Information Security Management Act of 200210 requires all Federal agencies to plan and budget
for information technology security. However, the IRS has not budgeted for the full
implementation of PIV-compliant physical access to IRS facilities.
Until PIV card authentication for physical access is fully implemented at all IRS offices, the IRS
faces an increased risk of unauthorized access at these offices.

Recommendation
Recommendation 1: The Chief Technology Officer and Chief, Agency-Wide Shared
Services, should ensure that all IRS facilities are equipped with HSPD-12 compliant physical
access control systems and that the prioritized plans to accomplish this are documented and
regularly reviewed for progress. The Chief Technology Officer should consider making
HSPD-12 a priority in terms of funding to better allow for its full implementation.


10
  Pub. L. No. 107-347, Title III, 116 Stat. 2899, 2946-2961 (2002) (codified as amended in 44 U.S.C.
§§ 3541-3549).
                                                                                                        Page 10
                         Progress Has Been Made; However, Significant
                         Work Remains to Achieve Full Implementation of
                          Homeland Security Presidential Directive 12


       Management’s Response: The IRS agreed with this recommendation. The AWSS
       will continue to install HSPD-12 compliant access control systems at all IRS facilities
       once the Information Technology organization receives sufficient funding. The AWSS,
       in conjunction with the Cybersecurity organization, has developed long-range prioritized
       plans for the installation of compliant, enterprise-wide physical access control systems in
       the remaining IRS locations that need them. Additionally, joint executive-level and
       bi-weekly meetings are conducted to review and discuss status updates, resolution of
       issues, information technology funding availability, and other pertinent matters. The
       AWSS maintains and frequently reviews the prioritized lists of locations that are still
       pending physical access control system deployments, and project status is discussed with
       the Deputy Commissioner of Operations Support during AWSS Business Performance
       Reviews.

Personal Identity Verification Card Electronic Authentication for
Logical Access to the Network Has Been Implemented for Only
5 Percent of the Workforce
HSPD-12 requires agencies to use PIV cards to access Federal networks and information
systems. OMB’s 2011 guidance required agencies to step up their efforts to use the electronic
capabilities of PIV credentials as the common means of authentication for access to agency
information systems. The Treasury Department set a goal for its bureaus to achieve 100-percent
HSPD-12 compliance for logical access to networks by FY 2013.

Mandatory PIV card authentication to the network has been implemented for only
5 percent of the workforce
The IRS has implemented mandatory use of PIV cards to access its network for only a small
percentage of its network users. As of May 30, 2014, only 5 percent of employees are required
to use PIV cards to access the IRS network.
Several challenges have delayed the IRS’s progress in meeting the goals set by the Treasury
Department for mandatory use of PIV cards to access IRS networks.
      The IRS needed to negotiate a National Treasury Employees Union agreement related to
       mandatory use of PIV cards prior to its implementation. This agreement was not
       finalized until July 2013.
      The HSPD-12 project has had limited dedicated resources. Most of the technical staff is
       temporarily assigned to this project. When the Federal Government shutdown was
       imminent in September 2013, much of this temporary staff was reassigned to other
       Information Technology organization functions to administer the shutdown of IRS
       information technology resources. Similarly, after the shutdown ended, these resources
       were required to deal with information technology systems restart and the numerous

                                                                                          Page 11
                         Progress Has Been Made; However, Significant
                         Work Remains to Achieve Full Implementation of
                          Homeland Security Presidential Directive 12


       helpdesk tickets generated from the shutdown and restart of the information technology
       systems.
      A solution for administrator access to the IRS network and information systems using a
       single PIV card and Personal Identification Number (PIN) has yet to be identified, tested,
       and implemented. Based on HSPD-12 requirements, the General Services
       Administration established a limit of one identity on each PIV card and one card per
       person. However, to support the security principle of least privilege, Treasury
       Department policy requires system administrators to have both an end-user account and
       one or more elevated privileged accounts to allow the system administrator to use an
       unprivileged account when not performing privileged actions. The requirement that
       administrators access the Federal networks and applications with a single PIV card and
       PIN creates a technological challenge across the Federal Government for an individual
       who needs both administrative and non-administrative type access to networks and
       information systems. Various solutions have been proposed to the IRS by the Treasury
       Department’s Treasury Enterprise Identity Credential and Access Management group;
       however, the IRS’s testing of these solutions has been designated as low priority due to
       insufficient funding and resources, as well as its current focus to increase mandatory use
       of PIV cards for network access, which it sees as a top priority in the progression towards
       full HSPD-12 implementation. As of May 30, 2014, the IRS reported to have
       3,070 people with privileged network accounts.
      The IRS currently has several systems and software which are not HSPD-12 compliant.
       The HSPD-12 project team provided a list of 25 technologies currently in use at the IRS
       that users have reported as incompatible with the use of PIV cards, and 18 additional
       technologies that potentially will cause conflicts. Some examples of these incompatible
       technologies include: Jabber®, a product by Cisco® that provides instant messaging;
       pcAnywhere™, a remote control solution by Symantec™ that allows helpdesk staff to
       access remote computers to resolve issues quickly; Control-M, a product by BMC
       Software that provides workload automation; and Business Object Enterprise, a product
       by SAP® that provides reporting and information delivery. The HSPD-12 project team
       cannot enable mandatory use of PIV cards for the users of the incompatible technologies
       until solutions to resolve the conflicts are found.
Beginning in April 2014, the HSPD-12 project team embarked on an ambitious implementation
schedule where they hope to implement mandatory use of PIV card for access to the IRS network
for more than 30,000 additional IRS network users. This effort will bring the total number of
network users required to logon with their PIV cards to approximately 35,700 (38 percent of
network users) by the end of FY 2014. As technological solutions are developed for
incompatible technologies, mandatory PIV card logon will be enabled for additional network
users.



                                                                                          Page 12
                          Progress Has Been Made; However, Significant
                          Work Remains to Achieve Full Implementation of
                           Homeland Security Presidential Directive 12


While the IRS has made some progress in updating information systems to
accept PIV cards, more work needs to be done
In addition to network access, HSPD-12 requires PIV card authentication to Federal systems and
applications. Treasury Department policy requires that all existing systems must be upgraded to
use PIV credentials prior to the agency using development and technology refresh funds to
complete other activities. Treasury Department policy also requires that new systems under
development must be enabled to use PIV credentials prior to being made operational.
The IRS has not implemented PIV card access to most of its existing information systems and
applications yet and has conducted limited work in this area. No IRS information systems are
exclusively accessed using PIV cards yet. The IRS has many legacy systems that do not work
with the PIV card, and a fix must be developed before users can be required to logon with a PIV
card. Although the IRS has made recent progress in this area, challenges still exist. For
example, the Remittance Transaction Research system was recently updated to support the use of
the PIV card. The application itself has about 22,000 users, not all of whom have been issued
PIV cards. Therefore, the IRS must continue to allow employees without PIV cards access to
this application. While this is progress, more must be done to ensure that all employees are
issued cards so that the IRS can enforce the use of PIV cards across all of its infrastructure and
application services. Implementing solutions to allow these applications to use the card must be
made a priority.
Due to limited staffing and funding, implementing mandatory logon to the IRS network using
PIV cards has been a higher priority than implementing PIV card access to all IRS information
systems. The IRS’s information technology infrastructure has historically been highly
decentralized, and systems tend to be implemented at the project or program level.
Authentication is implemented, in most cases, on an application-by-application basis. To
successfully implement “HSPD 12 compliant” applications utilizing a central authentication
source, identity store consolidation and identity data normalization must take place. The
HSPD-12 project team has to develop a supporting strategy that clearly articulates how to build
the infrastructure needed by application owners to make their applications compliant with
National Institute for Standards and Technology guidelines for utilizing PIV credentials. This
strategy must also make certain that new infrastructure components are compliant with these
guidelines before becoming operational.
The HSPD-12 project team has developed an IIAM Project Management Plan that provides a
strategy for building the centralized identity management infrastructure needed to achieve
HSPD-12 compliance and meet the Treasury Department’s goals and time frames. This plan
also identifies challenges that remain in achieving full PIV enablement, including the limited
funding and staffing based on the project’s prioritization; the long-term approach needed given
the size and complexity of the IRS, its business processes, and the critical nature of many of its
facilities, systems, and applications; and the current multiple technical environments that
frustrate a single-enterprise solution. The plan calls for governance oversight and regular

                                                                                            Page 13
                         Progress Has Been Made; However, Significant
                         Work Remains to Achieve Full Implementation of
                          Homeland Security Presidential Directive 12


stakeholder communications to discuss and resolve matters that have impact and require
coordination IRS-wide. The current plan also calls for the reuse of existing infrastructure
components where possible, adding only new components where absolutely necessary. This plan
has the potential to accelerate the adoption of the use of PIV cards if given the proper
organizational support.
The IRS acknowledges its stewardship responsibilities for ensuring that both agency mission and
security objectives are achieved. However, due to constant budget constraints, a key strategy for
the IRS Information Technology organization has been to use a risk-based approach towards
balancing business results with security requirements in order to continue to provide the core
information technology deliverables for achieving mission objectives. However, without full
implementation of HSPD-12 compliant authentication services, the IRS network and information
systems are at an increased risk of unauthorized access. If funding, staffing, and technical issues
are not resolved, full implementation of HSPD-12 compliant authentication will continue to be
delayed. In addition, without adequate education and oversight to prevent development or
purchase of noncompliant systems or software, full implementation of HSPD-12 will never be
achieved.

Recommendations
The Chief Technology Officer should:
Recommendation 2: Continue to provide oversight and drive implementation of HSPD-12
requirements while balancing resource demands to meet IRS mission objectives. To ensure full
implementation of mandatory PIV card access to the IRS network and information systems,
specific requirements, staffing, and scheduling should be identified and adequate funding
requested to cover those needs, including:
      Specific equipment and support needs should be clearly identified, including hardware
       and software requirements, testing needs, and any contractor expertise needed.
      Specific staffing needs should be clearly identified to ensure that not only the requisite
       number of staff is assigned to HSPD-12, but that staff with the correct skills are assigned
       to the appropriate activities.
      Detailed milestones should be developed and progress on those milestones should be
       regularly reported to the Chief Technology Officer as part of a detailed plan to implement
       mandatory logon to IRS networks and information systems with PIV cards and resolve
       the administrator access issue.
       Management’s Response: The IRS agreed with this recommendation. The
       Chief Technology Officer will continue to oversee and identify funding needed to support
       implementation of the HSPD-12 requirements. To the extent funding is provided, the


                                                                                           Page 14
                         Progress Has Been Made; However, Significant
                         Work Remains to Achieve Full Implementation of
                          Homeland Security Presidential Directive 12


       Chief Technology Officer will continue with implementation of mandatory PIV card
       access to the IRS network and information systems as well as:
      Equipment and support;
      Staffing; and
      Development of milestones for full implementation, contingent on funding.
Recommendation 3: Issue an IRS-wide memorandum reiterating the OMB M-11-11
requirement for full adoption of PIV credentials for logical access to the IRS network and
information systems.
       Management’s Response: The IRS agreed with this recommendation. The
       Chief Technology Officer will issue an IRS-wide memorandum reiterating the IRS’s
       enterprise-wide program to meet the OMB M-11-11 requirement mandating agencies to
       continue implementation of HSPD-12 policy. The policy is to protect the Nation’s
       infrastructure with the full adoption of PIV credentials for logical access to agency
       network and information systems.
Recommendation 4: Ensure that HSPD-12 compliant requirements are integrated in the
IRS’s lifecycle management process to ensure that new and existing systems implement this
requirement.
       Management’s Response: The IRS agreed with this recommendation. The
       Chief Technology Officer will: 1) notify the Enterprise Services organization to add the
       use of the PIV as a requirement to all enterprise lifecycle artifacts and solutions
       development processes, and 2) ensure that the use of the PIV card is fully detailed in the
       Enterprise Architecture.




                                                                                          Page 15
                           Progress Has Been Made; However, Significant
                           Work Remains to Achieve Full Implementation of
                            Homeland Security Presidential Directive 12


                                                                                         Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the IRS’s progress in implementing
HSPD-12 requirements for accessing IRS facilities and information systems. To accomplish this
objective, we:
I.      Determined the current status of the IRS’s HSPD-12 implementation, and identified
        issues impeding its full and timely implementation.
        A. Documented and reviewed pertinent HSPD-12 requirements, including the HSPD-12
           Directive, OMB memos, National Institute of Standards and Technology publications,
           Federal Cross-Agency Priority Goals, and summarized requirements and time frames
           for compliance.
        B. Obtained and reviewed documentation of the most recent IRS goals and
           implementation status.
        C. Consulted with key IRS personnel regarding the challenges faced relating to
           implementation and the root causes of those challenges.
II.     Followed up on IRS corrective actions pertaining to the September 2012 TIGTA report
        recommendations.1
        A. Determined whether the IRS Labor Relations office completed negotiations with the
           National Treasury Employees Union on mandatory use of PIV cards.
        B. Determined whether the IRS appointed a project manager to lead the IIAM project
           and provided sufficient full-time staffing and resources to the IIAM project.
        C. Determined whether the IIAM project manager selected the most feasible method to
           implement two-factor authentication for administrators and coordinated the activities
           needed to implement the interim and long-term solutions.
        D. Determined whether the IIAM project manager prioritized and coordinated the work
           to establish the infrastructure needed to PIV-enable information systems.
        E. Determined whether the IIAM project manager coordinated and led the activities to
           plan, develop, test, and deploy two-factor authentication using PIV cards for logical
           access to the Enterprise Remote Access Project.


1
 TIGTA, Ref. No. 2012-20-115, Using SmartID Cards to Access Computer Systems Is Taking Longer Than
Expected (Sept. 2012).
                                                                                                 Page 16
                                  Progress Has Been Made; However, Significant
                                  Work Remains to Achieve Full Implementation of
                                   Homeland Security Presidential Directive 12


           F. Determined whether the Cybersecurity organization ensured that an event-driven
              security control assessment for the General Support System 32 was completed by
              December 30, 2012, to ensure that security risks and vulnerabilities were identified
              and mitigated.
           G. Determined whether the project manager coordinated with the Applications
              Development organization Enterprise Systems Testing function staff to ensure that all
              required testing was completed and the results presented to the Security Services and
              Privacy Executive Steering Committee by December 30, 2012.
           H. Determined whether the Enterprise Life Cycle office validated that required
              Enterprise Life Cycle reviews, including Milestone Readiness Reviews, are properly
              conducted and all required artifacts2 are finalized and approved by the required
              officials listed within the artifacts.
           I. Determined whether the project manager conducted the: 1) Functional Configuration
              Audit, 2) Physical Configuration Audit, and 3) Life Cycle Stage Review for the
              Integration Test and Evaluation.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: Federal directives and guidance
on HSPD-12, including the HSPD-12 Directive, OMB memos, National Institute of Standards
and Technology publications, General Service Administration guidance, Department of the
Treasury and IRS policies, and Federal Cross-Agency Priority Goals. We evaluated these
controls by reviewing the Federal directives, guidance, and goals related to HSPD-12. We
interviewed the IRS IIAM project manager and staff with duties related to HSPD-12. We also
obtained and reviewed documentation of the most recent IRS HSDP-12 goals and
implementation status.




2
    An artifact is the tangible result of an activity or task performed during the lifecycle of a project.
                                                                                                             Page 17
                        Progress Has Been Made; However, Significant
                        Work Remains to Achieve Full Implementation of
                         Homeland Security Presidential Directive 12


                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Jody Kitazono, Audit Manager
Bret Hunter, Lead Auditor
Larry Reimer, Senior Auditor
Chanda Stratton, Senior Auditor




                                                                                     Page 18
                       Progress Has Been Made; However, Significant
                       Work Remains to Achieve Full Implementation of
                        Homeland Security Presidential Directive 12


                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Cybersecurity OS:CTO:C




                                                                        Page 19
                          Progress Has Been Made; However, Significant
                          Work Remains to Achieve Full Implementation of
                           Homeland Security Presidential Directive 12


                                                                               Appendix IV

        Internal Revenue Service Personal Identity
       Verification Card Issuance and Use Graphics

This appendix presents the IRS PIV card program, which involves multiple steps, data sources,
and personnel. Figure 1 depicts the basic IRS PIV card (also called SmartID) issuance process.
                         Figure 1: IRS PIV Card Issuance Process




   Source: IRS HSPD-12 Project Management Office policies and processes.

                                                                                        Page 20
                          Progress Has Been Made; However, Significant
                          Work Remains to Achieve Full Implementation of
                           Homeland Security Presidential Directive 12


The PIV card itself is coded with digital information which identifies an employee using various
attributes. The digital information is read by card readers at entrances to, or within, IRS facilities
to gain physical access to those facilities, or by computers to gain logical access to computers,
networks, or applications. The card also includes visible identifiers for human verification such
as a photo, name, title, and agency. Figure 2 provides an example of a typical PIV card.
                                  Figure 2: Typical PIV Card




                                  Source: IRS Mandatory SmartID User Guide.

Once access is gained to an IRS facility, the PIV card is inserted into an IRS computer. Figure 3
provides an example of how a PIV card is inserted into a card reader within a computer.
                      Figure 3: Example of How to Insert a PIV Card




           Source: IRS Mandatory SmartID User Guide.


                                                                                             Page 21
                          Progress Has Been Made; However, Significant
                          Work Remains to Achieve Full Implementation of
                           Homeland Security Presidential Directive 12


Once the PIV card is inserted into the computer, software reads the information on the PIV card
and asks the user to enter his or her PIN. Figure 4 illustrates the screen asking for the user’s PIN.
                          Figure 4: Screen Asking for User’s PIN




                         Source: IRS Mandatory SmartID User Guide.

After the employee enters his or her PIN, the employee has access to the IRS computer and
network.




                                                                                            Page 22
        Progress Has Been Made; However, Significant
        Work Remains to Achieve Full Implementation of
         Homeland Security Presidential Directive 12


                                                  Appendix V

Management’s Response to the Draft Report




                                                         Page 23
Progress Has Been Made; However, Significant
Work Remains to Achieve Full Implementation of
 Homeland Security Presidential Directive 12




                                                 Page 24
Progress Has Been Made; However, Significant
Work Remains to Achieve Full Implementation of
 Homeland Security Presidential Directive 12




                                                 Page 25
Progress Has Been Made; However, Significant
Work Remains to Achieve Full Implementation of
 Homeland Security Presidential Directive 12




                                                 Page 26
